ORIGINAL

21-ir
r
k-

No.
IN THE

Supreme Court of the United States
DANOS KALLAS,
Petitioner
v.

THERESA L. EGAN
as the Executive Deputy Commissioner of the
Department of Motor Vehicles of the State of New
York,

v

Respondent
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals For The
Second Circuit
PETITION FOR WRIT OF CERTIORARI
Danos Kallas,
Petitioner, pro se
200 Winston Drive #415
Cliffside Park, N.J. 07010
(201) 725-5149

FI LED
JUL 2 9 2021

QUESTIONS PRESENTED FOR REVIEW
1. “Whether the civil enforcement system should be
modified nation-wide to integrate an educational
option (with limitations for repeat offenders and
retention of checks on citizen abuse) that would
substantially dampen the effects of discrimination
and arbitrary taxation, educate the public, and
improve police-community relations and the public's
perception of the police, and information sharing, in
order to comport with Equal Protection and Due
Process and the compelling, common sense, interest in
information sharing between the public and the
police...” Kallas v. Fiala, 591 Fed. Appx. 30 (2d Cir.
2015), No. 14-310, 2015 WL 399127 (2d Cir. Jan. 30,
2015) SUMMARY ORDER, reh’g denied, No. 13 Civ.
8816 (GBD) (S.D.N.Y. Jan. 13, 2014), cert, denied, pet.
for cert, at (i).
are
also
statutes
2.
Whether
“...the
Unconstitutional under Equal Protection and Due
Process because they do not integrate an objective
progressive (sliding scale) fine schedule, thereby
having the effect of disproportionately burdening
minorities (who are proven, as a populace, to be less
able to pay fines) and suppressing their upward
mobility despite same being purportedly a key
component of the American way of life. Thus, another
problem with the "broken windows" view, other than
that it also incorrectly presumes (at least until
recently?) that enforcement is even-handed at this
threshold, is not in its principle or that it apparently
has the effect of lowering over-all crime but in its
effect on minorities who are paying an unfairly
disproportionate share of the cost and remaining
(i)

oppressed with this oppression playing a substantial
inexorable role in ensuing events leading to "burned
down buildings." Kallas v. Fiala, Id., pet. for cert, at 4.
3. Whether the court erred in not granting de jure
relief for questions presented 1. And 2. (above) and the
closely relevant supplemental substantive issues and
remedies contained in the Complaint as well as others
developed during the course of the litigation and
brought in this second petition for certiorari
specifically described and explained by Petitioner in a
clear and unequivocal way that virtually all literate
American citizens would understand (without specific
codified citations) and all continued to be proven by
ensuing events where molehills (ie. minor routine
traffic stops) turn into mountains (homicides of fellow
American citizens) noting “ [w]hether it matters that
Petitioner's positions on these issues have been
proven by ensuing events - including, but not limited
to, the civil unrest stemming from the homicide of an
American citizen during his arrest for selling loose
cigarettes, the tackling of a pregnant American citizen
for interfering with the arrest of her son over a civil
marijuana possession charge, the homicide of an
American citizen stemming from an arrest over a
pocket knife and, less on point but still relevant, the
murder of an American citizen stemming from a
traffic stop (where there is virtually always a law
somewhere in the civil traffic code that a police officer
can cite in order to stop a motor vehicle) (?) where
these incidents involved the enforcement of low
threshold offenses that caused, or resulted in, many
subsequent high threshold offenses (ie. civilian
assaults, and even assassinations, of police officers)
triggered, in no small part, by the underlying public
(ii)

dissatisfaction with the current system for the
enforcement of civil, or low threshold, offenses
(because the public is aware of the per se
Unconstitutionally pervasive level of discrimination
at this threshold?), and continued spill-over therefrom
can be more than reasonably be presumed and there
are many more similar incidents that do not get
national publicity but nonetheless exacerbate this
national problem.” Kallas v. Fiala, Id., pet. for cert, at
(i) - (ii).
4. Whether the court erred in in its determination
that Article III precluded the court from exercising
jurisdiction over the case, whether Petitioner waived
his right to amend the complaint for insufficiently
setting forth a cause of action in the Complaint
(summarily) and whether, nonetheless, the circuit
court could reverse the district court’s de facto sua
sponte waiver of objection to Petitioner’s objections to
the R&R and the de jure relief sought.
5. Whether, irrespective of the above, the Branches
should facilitate a meaningful compulsory safety
valve(s) for citizens proceeding pro se and gratis to
protect or defend their homeland under the 2nd
Amendment right to bear arms in the form of the pen
- subject to pre-conditions, burdens and deterrents (as
more particularly described and explained in
Petitioners several submissions) - to break through
negative impacts on the national citizenry caused by
nonfeasance, misfeasance or malfeasance by and/or
between the Branches as well as counterbalance the
generally less desirable traditional right to bear arms
whether or not the founding fathers foresaw the need
for safety valves because the American people should
(iii)

not have to wait in sufferance for the materially
inevitable de jure relief sought simply - and
unreasonably - because there is currently a time gap
between when everyone knows or should know the
relief they need but there is - at least to date - no
compulsory mechanism in the federal system to bring
them said relief while unreasonable, unnecessary
harm continues to befall them (in the absence of sole
or concerted action by and/or between the Branches)
and there is still no reasonably explained rebuttal to
any of the substantive national federal issues brought
by Petitioner in the history of the litigation (because
there is none) and, nonetheless, whether the federal
government can impose a duty on its citizens to
involuntarily protect or defend their homeland (ie. the
draft) yet, in stark contrast, deprive its citizens of a
safety valve(s) to voluntarily seek meaningful limited
compulsory break through relief while describing
citizens not acting in an official capacity as
“bystanders” instead of “fellow citizens and family
members” (which also explains why so much
unreasonable, unnecessary and improper domestic
harm occurs where citizens, perceiving themselves as
mere bystanders, fail to come to the aid of fellow
citizens — including the police).
6. Whether the time is long overdue for everyone to
“throw in the towel” on discrimination and, without
reference to this case, begin to provide all Americans
with meaningful genuine uniform nationwide
consistent rules (including those sought de jure in this
litigation) to level the playing field and begin the
peaceful and constructive healing of our nation’s
domestic problems pertaining to police-community
relations and civil peace.
(iv)

j

7. Whether the American people would be content
that they were served without the initial de jure
resolution (including the initial remedies therefor) of
the substantive national federal issues presented
herein and whether they can afford to wait longer for
Petitioner (provided he is not deceased or
permanently disabled and has the opportunity) to
return for yet a third round to get the people their de
jure relief while prolonged unreasonable, unnecessary
harm continues to befall the American people.

OPINIONS BELOW
The January 22, 2021 opinion (summary order) of
the court of appeals, whose judgment is herein sought
to be reviewed, Kallas v. Egan, No. 20-717 (2d Cir.
Jan. 22, 2021) SUMMARY ORDER, reh’g denied. No.
18 Civ. 12310 (VEC) (S.D.N.Y. Jan. 30, 2020), is
reprinted in the Appendix to this Petition, page(s) 316, and the order denying rehearing thereof, dated
March 12, 2021, is reprinted in the Appendix to this
Petition, page(s) 52-53, respectively. The prior
Memorandum, Opinion and Order of the United
States District Court for the Southern District of New
York, dated January 30, 2020, is reprinted in the
Appendix to this Petition, page(s) 17-29. The prior
Report and Recommendation of the Magistrate Judge
of the United States District Court for the Southern
District of New York, dated March 1, 2019, is
reprinted in the Appendix to this Petition, page(s) 3043. The prior Order to Show Cause of the Magistrate
Judge of the United States District Court for the
Southern District of New York, dated January 17,
2019, is reprinted in the Appendix to this Petition,
(v)

page(s) 44-51. “Constitutional Provisions, Treaties,
Statutes, Rules And Regulations Involved” are
included in the Appendix to this petition, page(s) 5457.
JURISDICTION
The judgment (summary order) of the court of
appeals was entered on January 22, 2021, and is
reprinted in the Appendix to this Petition, page(s) 316, and the petition for rehearing was denied on
March 12, 2021, and is reprinted in the Appendix to
this Petition, page(s) 52-53. The jurisdiction of this
court is invoked pursuant to 28 U.S.C. Section
1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, RULES AND REGULATIONS
INVOLVED
United States Constitution
Amendments
I, II, IV, V, X, XI, XIV
Articles
III (Section II), VI (Clause II)
Statutes
28 U.S.C.A. Section 1254(l)
28 U.S.C. Section 1331
42 U.S.C. Section 1983
(vi)

New York State Vehicle and Traffic Law, Section
1110(a)
New York State Vehicle and Traffic Law, Section
1229-c(3)(a)

(vii)

STATEMENT OF THE CASE
In a prior case, (Kallas v. Fiala, Id) Petitioner had
the opportunity to challenge two per se
Unconstitutional arbitrarily issued civil traffic tickets
(issued in mid-town Manhattan, New York under New
York State Vehicle and Traffic Law, Sections 1110(a)
and 1229-c(3)(a)) - including the Constitutionality of
the issuance thereof, the enforcement thereof, the
remedies of the statutes thereof, his conviction
thereof, and the judicial process pertaining thereto
and despite providing remedies that would, with zero
substantive objection, improve police-community
relations and civil peace, the courts would not allow
the reopening of the case after a procedural blunder
by Petitioner resulting eventually in the denial of a
prior petition for certiorari review by this court.
After the passage of several years, Petitioner
returned to the federal District Court for the Southern
District of New York to finish the job of serving the
best interests of the American people (including the
submission of additional closely related issues and
initial sufficient remedies therefor) because the
American people had still not received sufficient
relief.
The courts erroneously found that Petitioner
neither gave what it takes nor endured the harm that
it takes to justifiably “walk through the doors of a
federal court” for relief. Notwithstanding, Petitioner
persists with this petition for certiorari review to get
the American people their fullest proactive and
preemptive relief and get this ball fully into the endzone as explained hereinafter.
-1-

SUMMARY OF THE ARGUMENT
Even if the circuit court did not err in affirming the
dismissal of the district court for the reasons stated
and not conceded by Petitioner, Article III neither
absolutely prohibits public interest litigation (nor
would Petitioner's Complaint fail to state a cause of
action for lack of actionable concrete harm)
thereunder because this litigation is pro se and gratis
2nd Amendment safety valve litigation unforeseen (or
mistakenly not included) by the founding fathers
particularly where the Constitution has - in this
regard - failed to perform its own purpose of serving
the people. That the courts are the Constitutional
structural creation of Congress (summarily) does not
make the Judicial Branch any less coequal nor could
Congress reasonably complain where the courts serve
to check its own failures or those of the Executive
Branch. Where the checks and balances leave a
harmful void, there is an undeniable need for a safety
valve(s) unless everyone wants to deal the American
people a lower hand (an unjustifiably less perfect
union with unjustifiably less perfect results).
ARGUMENT
Because this a ground-breaking case of first
impression, there is no reasonably synthesizable
procedural precedent (from this universe) and
Petitioner, while maintaining all existing positions,
blaring distinctions, and rebuttals pertaining to same
and incorporated by reference, sticks to the roots of
the Constitution and the intent and/or errors of the
founding fathers.
-2-

Perhaps everyone should rethink what the 2nd
Amendment really means and how it should be
interpreted in contemporary American society with
citizens being redirected to exercise their 2nd
Amendment rights by bearing arms in the form of the
pen with the by-products being constructive and
counter to civil unrest and violence (as well as uniform
nationwide gun control laws with no independent
state grounds).
The same way the founding fathers and their
successors were in error prior to the abolition of
dueling (to the death) on reasonable and rational
grounds, they remain in error absent the initiation of
2nd amendment citizens’ break through safety valve
litigation despite virtually the same reasonable and
rational grounds applied in the converse context.
Give our citizens’ (including juveniles subject to
special considerations) some “teeth” (a “crack in the
door” for limited compulsory judicial and/or other
Branch relief without opening a “floodgate”) with a
genuine and meaningful right to bear the pen
resulting in the world’s leading democracy (going even
further than the leading European democracies have
gone) with the most efficient democratic government
in the world or deprive our citizens and, thus, our
nation this right resulting in a continuing flawed
democracy with a citizenry that continues to suffer
prolonged unreasonable, unnecessary and improper
harm on an ongoing perpetual repetitive basis
because of structural deficiency.
Though Petitioner breaks ground on the 2nd
-3-

Amendment citizens’ safety valve petition format (as
contemplated in prior submissions) in uncharted
waters, the Branches may develop a somewhat
different safety valve(s) but, in the absence of an
existing procedure, no one could x'easonably complain
that the procedure followed by Petitioner was
deficient because there is no other procedure in place
for compulsory relief and neither Respondent nor
anyone else cured.
Citizens seeking the use of a safety valve should be
strongly discouraged and deterred by the rules so that
only the most important cases reach substantive
resolution and only the most patriotic citizens would
pursue it - given what they face - as described and
explained in detail in Petitioner’s submissions where
the intent of the courts should be the minimization of
occurrence (a “crack in the door” without opening a
“flood gate”) and the maximization of substantive
results with an abundance of safeguards that will
insure that no judicial rulings will result in any
unreasonable undue radical change (as has also been
somewhat proven in the history of this litigation).
It seems that it is neither an objective standard nor
a subjective standard but a duel standard the courts
should apply on a cases by case ad hoc basis to
determine actionable harm? Yet, nonetheless, even if
the courts do not find concrete harm to a citizenlitigant under either standard, this should not
prohibit relief if there is a “win (somewhere) in it” for
the people. Where citizens bear ripe fruit, the people
should receive it though citizens with the sole or
additional motive of fame or fortune or other benefit(s)
■ not proceeding truly gratis - should be dealt with as
-4-

such and denied any conceivable direct or
consequential benefits as the courts should arrange
notwithstanding that truly gratis citizens would
nonetheless expect and receive the same result. The
nation should “reap the fruit” and the citizen should
“get the boot.”
Further, that Petitioner is not a minority citizen
member of the class is irrelevant because the class is
the American people. To claim that there is no
standing under these circumstances is to permit harm
to befall minorities where a citizen seeks to protect
their interests (consistent with the national interest)
in Equal Protection and fundamental fairness
consistent with the very object of the courts in
maintaining one of their principal purposes
notwithstanding that Petitioner is in it to protect the
entire American citizenry and the cards should fall for
all groups therein virtually wholly consistent
therewith.
There are zero cases cited where a bare bones
United States citizen (for their part) proceeded pro se
and gratis in the face of all adversity (and under
onerous burdens and deterrents, and conceded
limitations on remedies), waived objections to the
transfer or sharing of venue, substitution and/or
addition of counsel, and any participation of any
fellow citizen(s), and has mandatorily remained
available to finish this job until deceased or
permanently disabled or the American people win,
whichever is sooner (with all future similarly situated
citizens being expected to comply with all of the same).
Notwithstanding
the
pre-existing
ongoing
controversy, this is nonetheless, together with all
-5-

j

other factors mentioned herein, a legitimate “last line
of defense” Article III controversy.
The American people have some of the germane
substantive national federal remedies they need in
the Complaint and submissions thereafter including
the monumental remedy of 2nd Amendment break
through safety valve litigation developed during this
case (subject to modification). The courts have largely
sua sponte apparently denied them sufficient
proactive and preemptive de jure relief.
REASONS FOR GRANTING WRIT
This Court should review all submissions of
Petitioner and all other participants and proactively
and preemptively announce (reasonably closely) all of
the germane substantive de jure relief sought to take
immediate effect and/or firmly set it on the horizon de
jure (in the court’s discretion) - including the setting
of guidelines, at least in prototypical form, for future
citizens’ 2nd Amendment break through safety valve
litigation - with further modification left open and
deny, or otherwise dispose of, this petition (thereby
being rendered moot by cure) or set a less desirable
leading example and grant this petition with the same
result because (and in addition to all of the reasons
stated herein and incorporated by reference hereto)
the interests of the American people in the germane
substantive de jure resolution of all of the germane
national federal issues dwarf all other considerations
that could otherwise bar resolution.
CONCLUSION
-6-

For the foi’egoing reasons, trusting that the “handoff’ is done, Petitioner respectfully prays that this
honorable court share the ball and finish bringing the
ball into the end-zone for a complete win for the
American people.
-Zoz \
DatedRespectfully submitted,

Danos Kallas, Petitioner, pro se
200 Winston Drive #415
Cliffside Park, New Jersey 07010
(201) 725-5149

-7-

